<html>
<title> - HEARING ON THE NOMINATIONS OF VIRGINIA T. LODGE AND RONALD A. WALTER TO BE MEMBERS OF THE BOARD OF DIRECTORS OF THE TENNESSEE VALLEY AUTHORITY</title>
<body><pre>[Senate Hearing 113-785]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-785

                 HEARING ON THE NOMINATIONS OF VIRGINIA
                  T. LODGE AND RONALD A. WALTER TO BE
                  MEMBERS OF THE BOARD OF DIRECTORS OF
                     THE TENNESSEE VALLEY AUTHORITY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 13, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
98-200 PDF                     WASHINGTON : 2016                          

               
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f196819eb19284828599949d81df929e9cdf">[email&#160;protected]</a>  
              
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           NOVEMBER 13, 2014
                           OPENING STATEMENTS

Cohen, Hon. Steve, U.S. Senator from the State of Tennessee......     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     2

                               WITNESSES

Lodge, Virginia T., Nominated by President Obama to be a Member 
  of the Board of Directors of the Tennessee Valley Authority....     3
    Prepared statement...........................................     4
    Responses to additional questions from Senator Boxer.........     5
Walter, Ronald A., Nominated by President Obama to be a Member of 
  the Board of Directors of the Tennessee Valley Authority.......     5
    Prepared statement...........................................     6
    Responses to additional questions from Senator Sessions......     7

 
HEARING ON THE NOMINATIONS OF VIRGINIA T. LODGE AND RONALD A. WALTER TO 
 BE MEMBERS OF THE BOARD OF DIRECTORS OF THE TENNESSEE VALLEY AUTHORITY

                              ----------                              


                      THURSDAY, NOVEMBER 13, 2014

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:19 a.m. in 
room 406, Dirksen Senate Building, Hon. Barbara Boxer (chairman 
of the committee) presiding.
    Present: Senator Boxer.
    Senator Boxer. The committee is in order.
    I apologize, we are running late. Both sides are having 
their leadership elections right now, so this is going to be a 
very unusually easy hearing for both of you.
    Representative Cohen, I am going to call on you first. 
Thank you so much for being here from the Ninth District, and 
you are here to introduce Mr. Walter. So please proceed.

            OPENING STATEMENT OF HON. STEVE COHEN, 
   A MEMBER IN THE U.S. CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Cohen. Thank you, Senator. I appreciate the courtesy in 
allowing me to come and appear today.
    Indeed, it is in my perspective an honor to be associated 
with Ron Walter, as it would be a credit to the TVA to be 
associated with Mr. Walter as well. He has been a model citizen 
to the city of Memphis.
    And while he does have some political background, having 
worked with one of my predecessors, Congressman Harold Ford, 
Sr., in the 1980's, his life has not been as a political man, 
but a civic man. If you look through his vitae, he has been a 
member of the board or the president or chairman of the board 
of almost every important community and civic organization of 
the city of Memphis.
    His life is one of moral rectitude and probity that would 
be the envy of anyone. He will do a great service to the TVA if 
he is affirmed. He has intellect and he has character and 
independence of judgment.
    So I introduce to you my constituent and as fine a person 
as I know to serve on this board or any other board, Mr. Ron 
Walter.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you so much, Congressman, and you are 
free to go. I know you have other things to attend to.
    I want to begin by welcoming both of our nominees, Virginia 
Lodge and Ronald Walter, who have been nominated to serve as 
members of the TVA, the board of directors of the Tennessee 
Valley Authority. I appreciate both of you, your commitment to 
public service.
    TVA has an essential responsibility to communities it 
serves, including providing power to approximately 9 million 
people. TVA should be a leader, in my view, in providing 
reliable power, but also reducing the dangerous air pollution 
our children and our families are forced to breathe. I urge you 
to continue TVA=s increased focus on clean and renewable 
energy.
    It is also important that TVA focus on the management of 
waste from its coal-fired plants. It has been almost 6 years 
since the tragic coal ash disaster at the TVA Kingston fossil 
plant in Tennessee. TVA must remain committed to reducing the 
dangers associated with coal ash ponds and ensuring that 
neighboring communities are kept safe. As nominees, I would 
like to hear how you will make sure this remains a top priority 
for the board of directors.
    Another important area is the safety of nuclear power 
plants operated by TVA. Unfortunately, in recent years, the NRC 
has identified safety problems at TVA's nuclear power plants. 
Potential safety concerns cannot be ignored and must be 
addressed quickly, especially in the wake of the Fukushima 
nuclear disaster. And I want to share with both of you the fact 
that we had to close down a very large nuclear power plant, San 
Onofre, in California, because it was leaking radioactive, 
water with radioactivity in it. And it had to do with the re-
engineering of the plant that was not well done.
    So, caution, a cautionary tale. You are dealing with 
elements here that are very dangerous. I know you know that.
    TVA has an important mandate, to be a national leader in 
technological innovation, in low cost power and in 
environmental stewardship. And I know, I read the charge, it 
was such a visionary act when it was created. So you are going 
to be part of history, if I have anything to say about it, and 
I look forward to hearing from you.
    So why don't we start with you, Ms. Lodge.
    [The prepared statement of Senator Boxer follows:]

             Statement of Hon. Barbara Boxer, U.S. Senator 
                      from the State of California

    Ms. Lodge and Mr. Walter, thank you for being here today.
    The Tennessee Valley Authority is a unique component of 
government. It has a long, 80-some year history of providing 
electricity to the good folks in Tennessee and some of the 
surrounding states.
    Because of this, I know that you are being affected by the 
relentless onslaught of rules against the utility industry by 
the President's EPA. It started with Utility MACT a few years 
ago; then came the 316(b) Water Rule this past year. Now 
climate change regulations are on the drawing board and a 
reduction in the ozone standard is in the works.
    All of these regulations carry an enormous price tag: 
Utility MACT is estimated to cost about $100 billion to 
implement, and one recent study by NERA Economic Consulting 
estimated the climate change regulations for existing sources 
will cost between $350 billion and $500 billion to implement.
    From an economic standpoint, these rules translate into 
millions of lost jobs across the economy, and they are coming 
at a time when Americans are increasingly wary of our economy's 
health. It's the No. 1 political issue.
    The American people do not want more environmental 
regulations that increase energy costs and threaten job 
creation. In fact, Americans have consistently put 
environmental issues at the bottom of their priority list. 
Gallup's most recent poll, from just before the elections, had 
climate change listed as the very lowest priority among voters. 
This makes sense.
    The impact of these rules on the consumer cost and the 
reliability of our electric system are two of the key things 
that TVA needs to evaluate on these rules. Just last week the 
North American Electric Reliability Corporation issued an 
alarming report that the EPA's existing power plant rule may 
have a negative impact on electricity reliability. TVA needs to 
evaluate how its specific region will be affected so that the 
people who live there know how EPA's policies are going to 
affect them. This is especially true given your exposure to 
nuclear, which EPA claims its rules will help while industry 
assures us they will not.
    I know many people believe that the bulk of the costs 
imposed by the new climate change rules are going to be offset 
by efficiency improvements and savings generated from relying 
more heavily on natural gas. But efficiencies that save money 
don't need to be mandated, and we need look no further than our 
friends at the Sierra Club to understand the direction the EPA 
is headed on natural gas.
    Michael Brune, the group's Executive Director, recently 
said that ``Natural gas is a dirty fossil fuel. It's not a 
bridge. It's a gangplank. There's no way to build an economy 
fueled by clean energy that includes natural gas.''
    The great work this Committee has done over the years 
revealing the deep collusion that goes on between environmental 
groups and the EPA should confirm to us that the Agency's next 
move will be on the route of squeezing natural gas out of the 
energy mix.
    EPA is underestimating the true impacts of its 
environmental rules to convince the American people that they 
aren't as bad or extreme as they really are.
    We know better. The vision of our country under aggressive 
environmental policies like the ones being crafted by EPA is a 
gloomy one, and the questions of reliability and economic 
impact need to be fully evaluated and deeply understood by this 
Committee and the Congress. This is what I plan to focus on in 
the coming months, and I look forward to better understanding 
how these things will affect TVA and its customers.

STATEMENT OF VIRGINIA T. LODGE, NOMINATED BY PRESIDENT OBAMA TO 
 BE A MEMBER OF THE BOARD OF DIRECTORS OF THE TENNESSEE VALLEY 
                           AUTHORITY

    Ms. Lodge. Thank you, Chairman Boxer.
    I am honored to have been nominated by President Obama to 
serve on the Tennessee Valley Authority Board of Directors.
    When I moved to Tennessee 36 years ago, I knew little about 
TVA other than history and government classes. What I learned 
quickly was how crucially important it was and is to the 
region. There was almost no one from my generation or older who 
doesn't have a vivid memory of TVA lines being run to their 
homes or their businesses and the life-changing effect it had. 
My mother-in-law's family lives in a small town called Gold 
Hill in Chambers County, Alabama. My father-in-law's family 
lives and runs a cast iron foundry in another small town, South 
Pittsburgh, Tennessee. It would be impossible to overState the 
important role that TVA has held and continues to hold in their 
worlds.
    Being commissioner of the Tennessee Department of Human 
Services for 8 years gave me valuable experience in the 
complexities of operating a large public entity. Perhaps at 
least as valuable was the experience of traveling to all 95 
counties in Tennessee, visiting DHS offices and meeting with 
local businesses and community leaders.
    Much like our sister States in the region, these 
communities spoke of the need for economic development, the 
need for jobs, and the need to keep electricity rates low, both 
to attract business and to help the poor, especially the 
elderly, disabled and young children. We worked with TVA on 
weatherization and LIHEAP projects, which made dramatic 
improvements in the lives of our neediest citizens.
    The greatest reward of being commissioner is the ability to 
effect changes in public policy to improve the lives of our 
citizens and their communities. Serving on the TVA board would 
offer that same benefit.
    Since leaving State government, I have had the opportunity 
to experience the corporate sector. I was brought into my 
current company, FSI, as it was struggling to survive. There 
had been no strategic planning to guide the development and 
operation in the way that successful business require. We were 
able to turn the company around, make it profitable and 
continue to grow it.
    I learned in both government and private business that the 
cornerstone of success is to gather good and unbiased data, set 
clear goals and use the data to inform important decisions 
about what resources will get you to those goals most 
efficiently.
    If confirmed, I pledge to work closely with you, my fellow 
board members and the staff of TVA to promote TVA's mission to 
keep rates low, aid in economic development and work toward 
addressing environmental issues. I appreciate your 
consideration of my nomination and thank you for the 
opportunity to be here today.
    [The prepared statement of Ms. Lodge follows:]

 Statement of Virginia T. Lodge, Nominated by President Obama to be a 
   Member of the Board of Directors of the Tennessee Valley Authority

    Good morning, Chairman Boxer, Ranking Member Vitter, and 
distinguished members of the Committee. I am honored to have 
been nominated by President Obama to serve on the Tennessee 
Valley Authority Board of Directors
    When I moved to Tennessee, thirty-six years ago, I knew 
little about TVA other than from history and government 
classes. What I learned quickly was how crucially important it 
was and is to the region. There is almost no one from the 
region, my generation and older, who doesn't have a vivid 
memory of TVA lines being run to their home or business and the 
life changing effect it had. My mother-in-law's family lives in 
the small town of Gold Hill, Alabama in Chambers County. My 
father-in-law's family lives and runs a cast iron foundry in 
another small town, South Pittsburgh, Tennessee. It would be 
impossible to overState the important role that TVA has held 
and continues to hold in their worlds.
    Being Commissioner of the Tennessee Department of Human 
Services for 8 years gave me valuable experience in the 
complexities of operating a large, public entity. Perhaps at 
least as valuable was the experience of traveling to all 
ninety-five counties in Tennessee visiting the DHS offices and 
meeting with local business and community leaders. Much like 
our sister states in the region, these communities spoke of the 
need for economic development, the need for jobs and the need 
to keep electricity rates low both to attract business and to 
help the poor ,especially the elderly, disabled and young 
children. We worked with TVA on weatherization and LIHEAP 
projects which made dramatic improvements in the lives of our 
neediest citizens. The greatest reward of being a Commissioner 
is the ability to effect changes in public policy to improve 
the lives of our citizens and their communities. Should I be 
confirmed, serving on the TVA Board would offer that same 
benefit.
    Since leaving State government, I have had the opportunity 
to gain experience in the corporate sector. I was brought in to 
my current company, FSI, as it was struggling to survive. There 
had not been strategic planning to guide the development and 
operation in the way that successful businesses require. We 
were able to turn the company around, make it profitable and 
continue to grow it. I learned in both government and private 
business that the cornerstone for success is to gather good and 
unbiased data, set clear goals, and use the data to inform 
important decisions about what resources will enable you to 
achieve those goals most effectively.
    If confirmed, I pledge to work closely with you, my fellow 
board members and the staff of TVA to promote TVA's mission to 
keep rates low, aid in economic development, and work toward 
addressing environmental issues.
    I appreciate your consideration of my nomination and thank 
you for the opportunity to be with you today.

         Responses by Virgina T. Lodge to Additional Questions 
                           from Senator Boxer

    Question 1. Will you commit to visiting Bellefonte Nuclear 
Plant as a TVA Board Member and meeting with local community 
and business leaders about the role of TVA in the county and 
the plant's impact?
    Response. If confirmed as a TVA Board Member, I will want 
to visit the Bellefonte Nuclear site and commit to engaging 
with local community leaders and ratepayers.

    Question 2. As electricity demand rises in the Tennessee 
Valley region, will you also commit to examining the costs and 
benefits associated with completion and operation of one or 
more nuclear reactors at the Bellefonte Nuclear Plant?
    Response. If confirmed, I commit to examining the costs and 
benefits of a fully operating Bellefonte Nuclear Plant.

    Senator Boxer. Thank you.
    Mr. Walter.

STATEMENT OF RONALD A. WALTER, NOMINATED BY PRESIDENT OBAMA TO 
 BE A MEMBER OF THE BOARD OF DIRECTORS OF THE TENNESSEE VALLEY 
                           AUTHORITY

    Mr. Walter. Madam Chairman, I am enormously honored to be 
nominated by President Obama to serve on the Board of Directors 
of TVA.
    I thank my good friend, Congressman Cohen, who brought me 
to the attention of the President, the congressional Black 
Caucus and others who have supported my nomination.
    I also thank my wonderful wife of 27 years, 5 months and 1 
day, who is seated behind me, Mary Ann Walter. I also thank you 
for your consideration as I appear before you to seek your 
approval.
    My entire adult working life, I have been fortunate to have 
had great opportunities in both the public and private sectors. 
In 1980, I was hired by Memphis Light, Gas and Water, TVA's 
largest customer, as assistant to the president. One of my 
first assignments was working with TVA representatives on a 
conservation project in a challenged urban area of Memphis. 
This joint venture taught low-income residents how to insulate 
their homes efficiently and inexpensively, helping them achieve 
conservation and financial savings.
    Also in this project, supplies were bought where possible 
at local businesses to benefit the community. So in a very 
small way, this was a seed planted in the neighborhood to grow 
and nurture economic development. This experience gave me a 
great appreciation of the outreach of TVA and had a significant 
impact on me. In later years, as MLGW vice president of 
customer relations, I communicated and worked with key 
stakeholders dealing with budgets, developing strategic 
initiatives and carrying out departmental and corporate 
objectives. I learned much about government and business from 
that assignment.
    Fine tuning my business skills and work with government 
continued at WREG TV, the CBS affiliate in Memphis, where I 
serve as president and general manager. I am proud to add, it 
is the No. 1 station in Memphis. Managing this station requires 
budget achievement, evaluation of new technologies, interfacing 
with the FCC, creation and implementation of short and long 
term goals, problem solving and teamwork.
    My volunteer life includes service on community, State and 
regional boards, ranging from higher educational institutions, 
including my alma mater, Clark University in Worcester, 
Massachusetts, hospitals, and civil rights groups to charitable 
entities whose goals are the meet the needs of the people. This 
board work and these professional experiences have one thing in 
common: a focus on and a good understanding of the operations 
and compliance with rules and regulations that govern them.
    When institutional challenges are faced, sound solutions 
must be sought. Quite often, there are no easy fixes or 
shortcuts. Board members must work hard and smart as they 
evaluate matters and render decisions. Objectivity and 
independence are essential.
    Board members of TVA have similar responsibilities as they 
ponder TVA's diverse challenges, such as choosing and 
developing alternate power sources, dealing with pension 
reform, debt reduction, rates, river management and protecting 
the environment and generation of power. As a successful person 
in business and a community servant, I feel, if approved, I can 
assist TVA in these and other tasks.
    Finally, as a fourth generation Memphian and a fourth 
generation member of the Tennessee Valley, it is my belief that 
TVA must be preserved for future generations. I welcome the 
opportunity to serve on this board, should I be approved by 
you.
    Thank you.
    [The prepared statement of Mr. Walter follows:]

  Statement of Ronald A. Walter Nominated by President Obama to be a 
   Member of the Board of Directors of the Tennessee Valley Authority

    Madam Chairman, ranking member Vitter and distinguished 
members of the Committee, I am enormously honored to be 
nominated by President Obama to serve on the board of directors 
of the Tennessee Valley Authority. I thank Congressman Cohen, 
who brought me to the attention of the President, the 
congressional Black Caucus and others who have generously 
supported my nomination. I also thank you for your 
consideration as I appear before you to seek your consent and 
approval.
    My entire adult working life, I have been fortunate to have 
great opportunities in both the public and private sectors.
    In 1980, I was hired by Memphis Light Gas and Water 
Division (MLGW)--TVA's largest customer--as Assistant to the 
President. Prior to that, I defined TVA as a complex and large 
wholesaler of power, which in fact it primarily is. However, 
one my first assignments at MLGW enhanced that perception. I 
was assigned to work with TVA field representatives on a 
conservation project in a challenged urban area of Memphis. 
This joint venture between TVA and MLGW showed low-income 
residents how to insulate their homes efficiently and 
inexpensively, helping them achieve consumption and financial 
savings thereby improving their well-being.
    We also bought supplies, where possible, at local 
businesses to benefit the community. In a very small way, this 
was a seed planted in the neighborhood to grow and nurture 
economic development. This experience gave me a greater 
appreciation of the outreach of TVA and had a significant 
impact on me.
    Working at MLGW really opened my eyes. Through my later 
experience there as Vice President of Customer Relations, I 
communicated and worked with key utility stakeholders: 
customers, company colleagues, the media, community and 
political leaders and others. I dealt with budgets, and 
developed strategic initiatives and executed departmental plans 
as well as worked with the management team in carrying out the 
company's greater objectives. I learned much about government 
and business from that assignment.
    Fine tuning my business skills and work with government 
continued in my role at WREG-TV, the CBS Affiliate in Memphis, 
Tennessee, where I serve as President and General Manager. 
Managing this television station, which is the No. 1 station in 
the Memphis Television Market, requires my team and me to 
achieve budgets, evaluate new technologies, manage professional 
staffs, interface with the FCC, create and implement short and 
long-term goals and solve difficult problems. It is a 
deliberate team effort.
    My extensive volunteer life includes service on community, 
State and regional boards, ranging from universities and 
colleges, hospitals and civil rights groups to charitable 
entities whose goals are to meet the needs of people. My board 
and work experiences have this in common: a keen focus on and a 
good understanding of operations and compliance with rules and 
regulations that govern them.
    There is no doubt that in my volunteer and professional 
work, institutional challenges are faced and sound solutions 
are sought. Quite often, there are no easy fixes or short cuts. 
Board members and staff must work hard and smart as they 
properly evaluate matters and render decisions. Objectivity and 
independence are essential.
    Board members of TVA have similar responsibilities as they 
consider TVA's diverse challenges such as choosing and 
developing alternative power sources, dealing with pension 
reform, debt reduction, rates, river management, and protecting 
the environment in the generation of power. As a successful 
businessman and a community servant, I feel I can assist this 
venerable organization in these and other tasks.
    And finally, as fourth-generation resident of the Tennessee 
Valley, it is my belief that TVA must be preserved for future 
generations, and I welcome the opportunity to serve on this 
board, if confirmed. Thank you again for holding this hearing. 
I look forward to taking your questions.

        Responses by Ronald L. Walters to Additional Questions 
                         from Senator Sessions

    Question 1. Will you commit to visiting Bellefonte Nuclear 
Plant as a TVA Board Member and meeting with local community 
and business leaders about the role of TVA in the county and 
the plant'simpact?
    Response. In my experience, community input and close-up 
exposure are valuable factors in making business decisions. If 
confirmed, I would gladly visit the Bellefonte Nuclear site and 
meet with ratepayers and area leaders to gather their important 
counsel.

    Question 2. As electricity demand rises in the Tennessee 
Valley region, will you also commit to examining the costs and 
benefits associated with completion and operation of one or 
more nuclear reactors at the Bellefonte Nuclear Plant?
    Response. If confirmed, I commit to analyze the costs and 
benefits of TVA completing construction work on the Bellefonte 
Nuclear Plant.

    Senator Boxer. To me, as I look over your dedication, I 
don't question it, so I am very excited that you are willing to 
take this on.
    So I just want to make sure, with a yes or a no, do you 
share my view, and if you don't, please explain why, that 
making sure that your priorities are low-cost energy and safe, 
clean energy, those would be what you look for?
    Mr. Walter. Yes.
    Ms. Lodge. Yes.
    Senator Boxer. Because that is key, and I don't see those 
conflicting at all, by the way. I think they really do go hand 
in hand. Here is the reason. If you just focus on low cost 
energy but you don't look at safe energy and something happens, 
the cost to clean up is going to be absolutely enormous.
    So I am going to ask you two questions, which are official 
questions. Do you agree, if confirmed, actually it is three, do 
you agree, if confirmed, to appear before this committee or 
designated members of this committee and other appropriate 
committees of the Congress and provide information, subject to 
appropriate and necessary security protection, with respect to 
your responsibilities? Ms. Lodge?
    Ms. Lodge. I do.
    Senator Boxer. Mr. Walter.
    Mr. Walter. Yes, I do.
    Senator Boxer. Second, do you agree to ensure that 
testimony, briefings, documents and electronic and other forms 
of communication of information are provided to this committee 
and to its staff and other appropriate committees in a timely 
manner?
    Ms. Lodge. I do.
    Mr. Walter. Yes, I do.
    Senator Boxer. And last, do you know of any matters which 
you may or may not have disclosed that might place you in any 
conflict of interest if you are confirmed?
    Ms. Lodge. I do not.
    Mr. Walter. No, I do not.
    Senator Boxer. Well, the reason there are not more people 
here is not a lack of interest. I can tell you that. We feel it 
is very important to fill these slots because you can't operate 
an organization as great as TVA with empty slots. We tried hard 
to work with the Republicans on the committee, but what turned 
out to be a small, a shorter meeting, turned out to be a longer 
one. Even my meeting is still going on with my leadership but I 
ran out to do this.
    So they are not here. So we are going to do this. We are 
going to keep the record open for how long for the questions?
    Staff. Friday at 5 o'clock and they need to be back Monday 
at 5 o'clock.
    Senator Boxer. OK, so we are going to get your questions to 
them?
    Staff. We will get them to you Friday at 5 o'clock.
    Senator Boxer. Friday at 5, you will get the questions. And 
then you, do you agree to get those back to us very quickly, by 
Monday?
    Mr. Walter. Yes.
    Ms. Lodge. Yes.
    Senator Boxer. OK. Well, welcome, congratulations on these 
nominations. It is such a strange time in between Congresses. 
The gavel is going to change right here, and as I have said 
before, elections have consequences, and I grabbed that one 
back from James Inhofe and I am going to hand it back. But I am 
working on not grabbing it too tight, because that is what he 
did to me.
    [Laughter.]
    Senator Boxer. But right now I have it, and I am proud to 
have held it for 8 years. I welcome you here and I hope that 
you get these nominations confirmed as soon as possible. 
Because we need you.
    Thank you. We stand adjourned.
    [Whereupon, at 11:33 a.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
